Audit of USAID’s Compliance with Federal
Regulations in Awarding the Iraq Basic
Education Phase II Contract
Audit Report No. A-000-04-004-P
September 23, 2004




                     Washington, D.C.
                 OFFICE OF INSPECTOR GENERAL




September 23, 2004


MEMORANDUM

FOR:         Acting M/OAA/OD, Jeffery D. Bell

FROM:        AIG/A, Bruce N. Crandlemire /s/

SUBJECT:     Audit of USAID’s Compliance with Federal Regulations in
             Awarding the Iraq Basic Education Phase II Contract (Report No. A-
             000-04-004-P)

This memorandum transmits our final report on the subject audit. The report
contains no recommendations.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                  1300 PENNSYLVANIA AVE ., NW
                    WASHINGTON, DC 20523
(This page intentionally left blank)




                                       2
Table of   Summary of Results.......................................................................................... 5
Contents
           Background ....................................................................................................... 5

           Audit Objective ................................................................................................. 6

           Audit Findings .................................................................................................. 6

                      Did USAID comply with federal regulations in awarding the Iraq
                      Basic Education Phase II Contract? ...................................................... 6

           Evaluation of Management Comments..............................................................7

           Appendix I – Scope and Methodology ..............................................................9




                                                                                                                                  3
(This page intentionally left blank)




                                       4
Summary of   The Information Technology and Special Audits Division (ITSA) of the Office of
             Inspector General has completed an audit to determine whether the U.S. Agency
Results
             for International Development (USAID) complied with federal regulations in
             awarding the Iraq Basic Education Phase II Contract. 1 (See page 9.)

             For the areas reviewed, ITSA determined that USAID complied with applicable
             federal regulations in the awarding of this contract. (See page 6.)



Background   In response to the emergency situation in Iraq, USAID awarded $1.5 billion in
             contracts to carry out the initial phase of reconstruction work within the country.
             Among these contracts was a $62.6 million contract awarded to Creative
             Associates International, Inc. (CAII) to provide technical and other assistance to
             facilitate rapid school enrollment and retention in primary and secondary schools.
             This contract was awarded on April 11, 2003 as a cost-plus- fixed- fee level of
             effort term contract (EDG-C-00-03-00011-00) using other than full and open
             competition as authorized under a blanket approval granted by the USAID
             Administrator for activities and programs initiated in response to the crisis in the
             Near East. 2 The duration of the contract was twelve months (base period) with
             two option years.

             In an effort to conform with Congressional wishes and to promote full and open
             competition, USAID decided not to extend the Phase I contract for the second
             option year, but to award a new contract instead, as part of the second phase of
             contracts awarded for work in Iraq.

             On June 30, 2004, USAID completed its procurement process and awarded a
             $56.5 million (base period cost) cost-plus-fixed-fee term contract to CAII. 3 The
             contract’s purpose is to support the Iraqi Ministry of Education (MOE) in its
             efforts to improve the quality of Iraqi education in the areas of procurement and
             distribution of educational materials, community education grants, teacher
             training, early childhood development, model schools, and the development and
             establishment of a modern decentralized education system. This contract covers a


             1
                 The official t itle of this contract is “Support to Iraqi Basic Education (Education II).
             2
               On January 16, 2003, the Office of the USAID Administrator authorized expedited acquisition
             and assistance procedures for activities and programs in response to the crisis in the Near East.
             This authority allowed USAID to award these contracts using other than full and open competition
             requirements in accordance with 40 USC 474. This statutory authority requires the awarded
             contracts to be supported by written justifications and approvals as described in the FAR.
             3
                 Contract No. EPP-C-00-04-00004-00



                                                                                                             5
                  five year period, includ ing a 24-month base period plus three one-year option
                  periods. The total value of the contract is $191.4 million.


Audit Objective   This audit was conducted by the Office of Inspector General’s Information
                  Technology and Special Audits Division in Washington, D.C. in response to a
                  recent request from the U.S. House Appropriations Subcommittee for Foreign
                  Operations to review all new USAID contracts over $1 million and an earlier
                  request by the USAID Administrator to review the procurement process for all
                  Iraq reconstruction contracts. This audit was designed to answer the following
                  audit objective:

                         Did USAID comply with federal regulations in awarding the Iraq
                         Basic Education Phase II Contract?

                  Appendix I contains a discussion of the audit scope and methodology.



Audit Findings    For the areas reviewed, we determined that USAID complied with applicable
                  federal regulations in awarding the Iraq Basic Education Phase II Contract.

                  The federal regulations covering the contract award process are contained in the
                  Federal Acquisition Regulation (FAR). Some of the key regulations under the
                  FAR include requiring contracting officers, with certain limited exceptions, to
                  provide for full and open competition through the use of the competitive
                  procedure that is best suited to the circumstances of the contract action (FAR Part
                  6.100). Contracting officers must also publicize contract actions in order to
                  increase competition, broaden industry participation and assist small or
                  disadvantaged business concerns in obtaining contracts (FAR Part 5.000). In
                  advertising the contract actions, the FAR specifies the procedures for preparing
                  the Request for Proposals, as well as restrictions regarding the exchange of
                  information with prospective contractors prior to receipt of the proposals (FAR
                  Part 15.200). The FAR also requires contracting officers to obtain and document
                  sufficient evidence to enable them to make a determination as to whether
                  prospective contractors submitting proposals are qualified (FAR Part 9.100). In
                  addition to the FAR, USAID’s acquisition regulations (AIDAR) specify
                  prescribed procedures for evaluating proposals received from prospective
                  contractors and require the results of these evaluations, including any discussions
                  held with offerors, to be documented in the contract files.

                  We determined that USAID complied with the aforementioned regulations in
                  awarding the Basic Education Phase II Contract to CAII. We found, for example,
                  that USAID’s Bureau of Management, Office of Acquisition and Assistance
                  (M/OAA) complied with FAR Parts 6 and 15 by selecting a competitive



                                                                                                   6
                procedure to solicit offers and issuing a negotiated request for proposals, in an
                effort to provide for full and open competition.

                In addition, we determined that M/OAA complied with FAR Parts 5 and 15 in
                publicizing this contract action and in preparing the request for proposal (RFP).
                On February 27, 2004, USAID issued the Request for Proposal for this contract
                on the Federal Business Opportunities website with an initial closing date of
                March 29, 2004. To increase competition, USAID issued an RFP amendment
                extending the closing date to April 8, 2004. Two firms submitted final proposals
                by the amended April 8, 2004 closing date. Documentation contained in the
                contract files showed that M/OAA made the required determination as to whether
                these two prospective contractors were qualified and responsible to perform the
                contract.

                A technical evaluation panel reviewed the two proposals and determined that only
                one, CAII, was acceptable. As required under AIDAR 715, the contract files
                documented the results of this panel evaluation, including justification for its final
                selection, as well as the many exchanges between the panel, the contracting
                officer, and the prospective contractors.

                Based on the above, we concluded that USAID had complied with federal
                regulations and awarded the Basic Education Phase II Contract to CAII under full
                and open competition.



Evaluation of   M/OAA stated that they agreed with the findings in the report.
Management
Comments
Evaluation




                                                                                                    7
(This page intentionally left blank




                                      8
                                                                                     Appendix I

Scope and     Scope
Methodology
              The Information Technology and Special Audits Division of the Inspector
              General’s Office conducted this audit in accordance with generally accepted
              government auditing standards. The purpose of the audit was to determine if
              USAID complied with federal regulations in awarding the Iraq Basic Education
              Phase II Contract.

              Fieldwork for this audit was conducted at the offices of USAID/Washington from
              August 4, 2004 to September 16, 2004. The audit covered the awarding of a cost-
              plus-fixed- fee term contract entitled “Support to Iraqi Basic Education (Education
              II) (Contract No. EPP-C-00-04-00004-00) to Creative Associates International,
              Inc. (CAII) on June 30, 2004.

              In carrying out this audit, we reviewed records and information contained in the
              contract files relating to the solicitation and awarding of the above contract. In
              addition to the contract files, we reviewed correspondence provided to us by the
              Bureau of Management, Office of Acquisition and Assistance (M/OAA) and the
              chairperson of the technical evaluation panel. The audit reviewed these records in
              order to determine whether USAID complied with key federal regulations,
              specified in the Federal Acquisition Regulation (FAR), as well as Agency
              regulations, contained in the USAID Acquisition Re gulation (AIDAR), pertaining
              to the solicitation and awarding of the contract. Specifically, we reviewed
              USAID’s compliance with key regulations contained in the FAR Parts 5, 6, 9 and
              15 and AIDAR 715.3.

              The scope of this audit also involved obtaining an understanding of USAID’s
              process for soliciting and awarding contracts which included the following key
              management controls:

              §   Review of Request for Proposals.
              §   Determination of whether prospective contractors are qualified.
              §   Evaluation of proposals by technical evaluation panel.
              §   Documenting of assessments, discussions with prospective contractors
                  evaluation results, and basis for final selection.

              This audit did not involve an assessment of the overall effectiveness of the
              management controls at USAID/Iraq or M/O AA with regards to the solicitation
              and awarding of contracts. In addition, the audit did not assess the reasonableness
              of the contract price.




                                                                                               9
Methodology

To answer the audit objective, we examined supporting records and information
contained in the contract files at USAID’s Office of Acquisition and Assistance in
Washington, D.C., as well as correspondence provided to us by the M/OAA and the
chairperson of the technical evaluation panel. Some of the records and documents
examined included the memorandum of negotiation, Request for Proposal, memorandum
on the results of the technical evaluation panel review, contract and general
correspondence. These documents were prepared by the procurement staff at the
M/OAA in Washington, D.C.

A materiality threshold was not established for this audit given the nature of the audit
objective which involved assessing procedural compliance with applicable federal
regulations in the awarding of this Iraq Phase II contract.




                                                                                     10
